No. 19-1039

 

IN THE
Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC, Petitioner,
Vv.

STATE OF NEW JERSEY, ET AL., Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

CERTIFICATE OF COMPLIANCE

I, Ellen O. Boardman, a member of the Bar of this Court, as required by Supreme Court
Rule 33.1(h), do hereby certify that on the 8th day of March, 2021, the Brief of Amici Curiae
United Association of Journeymen and Apprentices of the Plumbing and Pipe Fitting Industry of
the United States and Canada, AFL-CIO; International Union of Operating Engineers;
International Brotherhood of Teamsters; Laborers’ District Council of Eastern Pennsylvania; and
New Jersey State Building and Construction Trades Council in Support of Petitioner contains
4,247 words, excluding the parts of the document that are exempted by Supreme Court Rule

33.1(d).

Dated: March 8, 2021
Ellen O. Boardman — Counsel of Record

O°’ DONOGHUE & O’ DONOGHUE LLP
5301 Wisconsin Avenue, NW

Suite 800

Washington, DC 20015
eboardman@odonoghuelaw.com
(202) 362-0041

Counsel for Amici Curiae
